<html>
<title> - NOMINATION OF C. SUZANNE MENCER</title>
<body><pre>[Senate Hearing 108-291]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-291

                    NOMINATION OF C. SUZANNE MENCER

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                 ON THE

  NOMINATION OF C. SUZANNE MENCER TO BE DIRECTOR, OFFICE FOR DOMESTIC 
             PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY

                               __________

                           SEPTEMBER 16, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs



90-234              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Deleware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas
              Michael D. Bopp, Staff Director and Counsel
                    Johanna L. Hardy, Senior Counsel
              Tim Raducha-Grace, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Beth M. Grossman, Minority Counsel
           Jennifer E. Hamilton, Minority Research Assistant
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     4
    Senator Lautenberg...........................................    10
    Senator Levin................................................    12
Prepared statements:
    Senator Coleman..............................................    17
    Senator Akaka................................................    17

                               WITNESSES
                      Tuesday, September 16, 2003

Hon. Wayne Allard, a U.S. Senator from the State of Colorado.....     1
Hon. Ben Nighthorse Campbell, a U.S. Senator from the State of 
  Colorado.......................................................     2
C. Suzanne Mencer to be Director, Office for Domestic 
  Preparedness, Department of Homeland Security..................     6

                     Alphabetical List of Witnesses

Allard, Hon. Wayne:
    Testimony....................................................     1
Campbell, Hon. Ben Nighthorse:
    Testimony....................................................     2
Mencer, C. Suzanne:
    Testimony....................................................     6
    Biographical and professional information requested of 
      nominees...................................................    19
    Pre-hearing questionnaire....................................    37
    Post-hearing questions and responses for the Record from:
      Senator Lautenberg.........................................    75
      Senator Akaka..............................................    80

 
                    NOMINATION OF C. SUZANNE MENCER

                              ----------                              


                      TUESDAY, SEPTEMBER 16, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:38 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Levin, and Lautenberg.
    Chairman Collins. The Committee will come to order. I 
notice that two of my distinguished colleagues from Colorado 
are with us this morning and I also know that they are on very 
tight schedules, so I am going to dispense with the ordinary 
order for this hearing and call on my colleagues to introduce 
the witness and then I will do my opening statement.
    This is a hearing on the nomination of C. Suzanne Mencer to 
be the Director of the Office for Domestic Preparedness, the 
Department of Homeland Security. I would say to the nominee 
that she obviously is thought very well of by the two Senators 
from Colorado, that both of them have taken time from their 
extraordinarily busy schedules to join us this morning.
    We will start in order of seniority with Senator Campbell.
    Senator Campbell. Madam Chairwoman, with your permission, I 
would like to yield to Senator Allard. I know his schedule is a 
little tighter than mine.
    Chairman Collins. OK.
    Senator Campbell. The last two times, I think I went first 
anyway.
    Chairman Collins. That would be fine. Senator Allard.

 TESTIMONY OF HON. WAYNE ALLARD, A U.S. SENATOR FROM THE STATE 
                          OF COLORADO

    Senator Allard. Madam Chairman, if that would be all right 
with you, I will proceed.
    Chairman Collins. Absolutely. Welcome. We are delighted to 
have you here.
    Senator Allard. Thank you for your consideration and thank 
you for the good work that you do.
    Madam Chairman, it is a privilege to be here with my good 
friend and colleague, Senator Campbell, to present to you Sue 
Mencer, who the President has nominated to be the Director of 
the Office for Domestic Preparedness in the Department of 
Homeland Security.
    Madam Chairman, Members of the Committee, we in Colorado 
approach this nomination with mixed emotions. On one hand, we 
are pleased that the President selected such a strong, 
competent leader to head this important office. Yet on the 
other hand, we feel the impact of losing one of the Rocky 
Mountain State's finest public servants.
    Ms. Mencer served our country for nearly 25 years and the 
State of Colorado for the last 3 years as the State's Executive 
Director of Public Safety. As a distinguished FBI agent, Sue 
proved her mettle during several high-profile national security 
investigations and later as the FBI's supervisor for the Denver 
Joint Terrorism Task Force.
    However, those years in the FBI must have seemed like a 
walk in the park compared to the last 3 years. Appointed in 
2000, Sue took over the Department of Public Safety just in 
time for the tragedy of September 11. As we all know, the shock 
waves from that terrible day were felt around the country, 
including Colorado. Fortunately for Colorado, though, we had in 
Sue a leader capable of developing a new plan for preventing 
and, if necessary, responding to a potential terrorist attack.
    Under her guidance, Colorado quickly moved to create an 
Office of Preparedness, Security, and Fire Safety, which 
brought focus and structure to the State's terrorism prevention 
and response planning. The Office has also acted as a conduit 
for counterterrorism and response activities, including Federal 
first responder grant programs. Perhaps more importantly, Sue 
helped develop Colorado's homeland security strategy. This 
well-crafted document strikes a delicate balance between 
enhancing the State's homeland security activities while 
emphasizing the importance of close cooperation with local 
officials, Federal agencies, and the private sector.
    Madam Chairman, the importance of first responder 
preparedness cannot be understated. Sue once said, ``A lot of 
home security is common sense.'' That is refreshing, isn't it? 
``It is preparing for times that there might be a cessation of 
activity as you know it, no different than being prepared for a 
natural disaster, like a winter snowstorm or a tornado in the 
Midwest.''
    As the Director of the Office for Domestic Preparedness, 
Sue will bring the same common sense, practical thinking, and 
steady leadership that made Colorado one of the most prepared 
States in the country. I believe the President chose the right 
person in Sue and I give you my strongest endorsement for her 
confirmation.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you very much. Senator Campbell.

TESTIMONY OF HON. BEN NIGHTHORSE CAMPBELL, A U.S. SENATOR FROM 
                     THE STATE OF COLORADO

    Senator Campbell. Thank you, Madam Chairwoman. I appreciate 
being here also to co-introduce Suzanne Mencer. I have been 
scratching a few things off of my notes. Everything that 
Senator Allard has already said, I certainly endorse, but will 
try not to be redundant.
    As Senator Allard said, Suzanne served as an FBI agent for 
over two decades. She began her career with the Bureau after 
spending several years teaching Spanish in the public school 
systems of Florida, Ohio, and Missouri. One thing I did not 
know about her is that she met her future husband through FBI 
training, too, and I would like her to introduce her family 
before I finish my statement, if she would.
    Ms. Mencer. Thank you, Senator. With me today, I am very 
happy to have my husband, John Mencer, my son, Alex, my nephew-
in-law, Chris, and my brother-in-law, George Doms. They came 
from New Jersey for my hearing. Thank you.
    Chairman Collins. We welcome all of them today.
    Senator Campbell. Thank you. Once with the Bureau, she left 
for service in Mobile, Alabama, and continued on to positions 
in New York City, FBI headquarters here in Washington, DC, and 
finally a move to the Denver office in 1990, which was 
certainly Colorado's gain.
    During her term with the FBI, she participated in specific 
operations which made use of her English and Spanish skills. 
She is fluent in Spanish, and in this day and age, I think that 
is an extremely important asset to have in any public sector. 
She went on to serve as a supervisory special agent while here 
at the headquarters in Washington, and she was also in charge 
of investigations in country-specific areas of national 
security and had responsibilities for preparing the 
Congressional budget for the National Security Division of the 
Bureau.
    Once in Denver, she had the important responsibility of 
supervising a squad of special agents, analysts, local law 
enforcement officers, and other Federal agency investigators in 
the Joint Terrorism Task Force that Senator Allard mentioned. 
She served as the chair of the Interagency Threat Analysis 
Group for the Summit of Eight which was held in Denver in 1997, 
and leaders from literally all over the world were at that 
conference. She was also the chair of the Intelligence and 
Threat Analysis Committee of the Denver Consortium of the White 
House Commission on Aviation Security and Safety.
    After she retired from the FBI in 1998 and thought she was 
going to move forward in a life of relaxation with her family, 
she worked as a consultant providing antiterrorism training to 
local law enforcement throughout the United States in 
cooperation with the Institute of Intergovernmental Research.
    Then in 2000, Suzanne was appointed by the Colorado 
Governor, Bill Owens, as Senator Allard mentioned. She has done 
a terrific job in that capacity, overseeing the Colorado Bureau 
of Investigation, the Colorado State Patrol, the Division of 
Criminal Justice, and the Division of Fire Safety. She 
currently manages 1,200 employees and an operating budget of 
$195.5 million.
    I might also say, Madam Chairperson, when Suzanne first got 
involved in law enforcement some years ago--I am sure you are 
well aware of this--it tended to be a male profession. There 
were very few women in those days in the FBI or any Federal 
agency, and even in the local departments. They did have some 
trouble in those years working themselves up to positions of 
authority and to command. And certainly from that standpoint, 
Suzanne, I think, was really one of the women that cracked the 
glass ceiling, so to speak, in law enforcement.
    During her time with the Department of Public Safety, she 
has also been instrumental in creating the Colorado Office of 
Preparedness, Security, and Fire Safety, and did all that 
without adding additional employees and without receiving 
appropriation from the Colorado General Assembly, which is 
generally broke, as all State offices are now.
    She worked with a number of groups that I was very 
interested in, and, in fact, sponsored a number of bills 
dealing with them, the Police Officers Standard and Training 
Board, the High-Intensity Drug Trafficking Board, which is 
called HIDTA, the Judicial Discipline Commission, the 
Governor's Clemency Board, and she currently also serves as 
adjutant professor at the University of Colorado in Denver.
    So I have no doubt, as does Senator Allard, that she is 
more than well qualified to be the Director of the Office for 
Domestic Preparedness. She understands that the new warriors in 
this war on terrorism very often are local police, local 
firemen, and certainly has the support of them, too.
    So with that, I would say that this very dedicated, 
tenacious, and extremely talented lady, I should think would be 
well received by this Committee and by our colleagues on the 
floor of the Senate.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you very much, and in that regard, 
your strong endorsement makes a great deal of difference to 
this Committee and to your colleagues, so thank you very much 
for taking the time to be with us today.
    Senator Campbell. Thank you. I told Suzanne that I would 
have to excuse myself because I have other commitments, too. 
Thank you.
    Chairman Collins. Absolutely. Thank you.
    We are now going to resume with the normal order of 
procedure and I will deliver my opening statement.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Senator Collins. Today, the Committee on Governmental 
Affairs is holding a hearing to consider the nomination of 
Suzanne Mencer to be the Director of the Office for Domestic 
Preparedness, known as ODP to the Members of this Committee, in 
the Department of Homeland Security. The ODP administers a 
number of homeland security grants to State and local 
governments.
    If confirmed as Director of the Office for Domestic 
Preparedness, Ms. Mencer will be responsible for assisting 
States and local jurisdictions in their efforts to help 
prevent, plan for, and, if necessary, respond to acts of 
terrorism through training, equipment, technical assistance, 
and other support. She will also be called upon to distribute 
billions of dollars of Federal assistance for States, 
localities, and first responders with what is now a notable 
lack of guidance from Congress. Indeed, the 187-page Homeland 
Security Act contained but a single paragraph on grant programs 
for first responders, but help is on the way.
    This Committee has taken a keen interest in improving the 
way we support our States, communities, and first responders. 
The Committee has held three hearings examining this important 
issue. In addition, earlier this year, the Committee 
unanimously endorsed legislation I introduced, the Homeland 
Security Enhancement Act, which would streamline and strengthen 
homeland security grant programs. And just last week, Senator 
Pryor and I introduced legislation to provide advanced 
counterterrorism equipment and information to law enforcement 
agencies to help them prevent, detect, and apprehend 
terrorists.
    By working with and listening to State and local officials 
and first responders, the Director of ODP will be able to 
improve the security of each and every community.
    I am hopeful, Ms. Mencer, if you are confirmed, that you 
will take swift action to correct some of the problems we have 
experienced in the distribution of homeland security grants. 
One is making sure that the grants, training, and exercises are 
flexible enough to meet the homeland security needs of our 
communities. On a number of occasions, officials and first 
responders from my home State of Maine, as well as other 
States, have expressed concerns to me about the lack of 
flexibility in grant funding. This has hindered their efforts 
to protect their communities.
    For example, Maine's fire chiefs have told me that the 
rigid rules of homeland security grant funding are actually 
preventing fire fighters from accepting training opportunities 
at the National Fire Academy. That just does not make good 
sense.
    There have also been delays in distributing money from the 
Federal Government to the local level. I hope you will work to 
expedite the distribution of funding so that we don't have the 
experience that we heard about at one of our hearings, where 
the local fire chiefs and police department chiefs who 
testified said that they had yet to receive any homeland 
security funding.
    I was very pleased to read in your written responses where 
you stressed your commitment to providing flexible resources to 
each and every State. I strongly endorse your commitment to 
establishing a baseline level of capacity to prevent and 
respond to terrorist attacks. We recognize that different areas 
of the country have different needs, but every area needs to 
bring their homeland security baseline up to a certain level. 
After all, each State must protect its vulnerabilities, 
including critical infrastructure and borders. Each State must 
train and equip first responders.
    Coordination with agencies within and outside the 
Department will also be key to your success. I hope that you 
will take steps to eliminate redundant paperwork, standardize 
equipment and training standards, and coordinate emergency 
preparedness plans.
    And I realize that you can't do this alone. This Committee 
has worked on a bipartisan basis to improve the resources 
available to the Department. I hope that you and your staff do 
not hesitate to contact this Committee and work very closely 
with us if you find that you need additional tools to 
effectively assist our communities and first responders.
    Let me end my statement by saying that I am very pleased 
you have agreed to take on these challenges. Your extensive 
experience in the FBI, as the State official leading the 
Department of Public Safety in Colorado, and as a private 
consultant providing antiterrorism training to local law 
enforcement make you unusually well qualified for this vital 
position.
    I now want to indicate for the record that you have filed 
responses to a biographical and financial questionnaire, that 
you have answered the pre-hearing questions submitted by the 
Committee, and that your financial statements have been 
reviewed by the Office of Government Ethics. Without objection, 
this information will all be made part of the hearing record, 
with the exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
    Ms. Mencer, our Committee rules require that all witnesses 
at nomination hearings give their testimony under oath, so if 
you would please stand and raise your right hand so I can 
administer the oath.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Mencer. I do.
    Chairman Collins. You may be seated.
    It is my understanding that you do have a statement you 
would like to make and I would ask you to proceed at this time.

 TESTIMONY OF C. SUZANNE MENCER,\1\ TO BE DIRECTOR, OFFICE FOR 
     DOMESTIC PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY

    Ms. Mencer. Thank you. Madam Chairman, I appreciate the 
opportunity to speak before you today and I just want to 
express my sincere thanks to Senators Allard and Campbell for 
their statements. That was very humbling and I appreciate that.
---------------------------------------------------------------------------
    \1\ The biographical and professional information of Ms. Mencer 
appears in the Appendix on page 19.
     Pre-hearing questionnaire appears in the Appendix on page 37.
     Post-hearing questions and responses appear in the Appendix on 
page 75.
---------------------------------------------------------------------------
    My name is Suzanne Mencer and I am President Bush's nominee 
for the position of Director of the Office for Domestic 
Preparedness in the Department of Homeland Security. It is 
indeed a great honor to appear before you today.
    If I may, I would like to introduce yet again very briefly 
my husband, John, who has been my biggest supporter, my mentor, 
my biggest fan through these 25 years. Our son, Alex, who is 
here missing school today but getting extra credit for his 
American Government class, so we are happy that he is here. Our 
daughter, Jessie, is unable to be here. She is a student in 
Massachusetts in college and she couldn't make it for the 
hearing, but she has always been very proud of everything I 
have done and I appreciate that. My brother-in-law, George, and 
his son, Chris, who came all the way from New Jersey this 
morning to be here with me today. Thank you for allowing me to 
introduce them again.
    Thirty-five years ago this month, as I began a 10-year 
career as a high school Spanish teacher in Worthington, Ohio, I 
never dreamed I would be sitting here today, nominated by the 
President of the United States. And not even after a 20-year 
career in the Federal Bureau of Investigation, investigating 
and supervising foreign counterintelligence, international and 
domestic terrorism, did I dream of this. Not even when Governor 
Bill Owens appointed me to become the Executive Director of 
Public Safety for Colorado 3 years ago did I imagine being here 
today. Indeed, this is a great honor.
    However, I do believe that my experience at the Federal 
level in terrorism matters, combined now with my years of 
service at the State level, working closely with first 
responders and local law enforcement, provide a truly unique 
perspective. I have seen what is necessary at the Federal, 
State, and local level to combat terrorism and I have seen it 
from an investigative response and tactical perspective. I know 
firsthand how important equipment, training, and exercises are 
to prevent another event from occurring, but if it does, to 
have the resources to respond in the most effective and 
efficient way possible.
    I have worked closely in Colorado with sheriffs, chiefs, 
fire chiefs, emergency response personnel, health care 
providers, and our Federal partners to develop plans using 
regional approaches. We stress in Colorado that we must all 
work together, crossing city lines, county lines, State 
boundaries, because a weapon of mass destruction overwhelms the 
capability of any one community to respond. But more 
importantly, we stress that we must combine our resources. 
Terrorists are not restricted by city, State, or county lines, 
and we need to prepare accordingly.
    If confirmed, I hope to use that perspective to ensure that 
the Federal funds so necessary to the defense of our country 
are directed and applied throughout the United States to reap 
the greatest benefit to detect, deter, and respond to a 
terrorist act.
    If I am confirmed, I would be grateful, humbled, and 
honored to have the opportunity to use my expertise and my 
abilities to serve the President and my country in the 
Department of Homeland Security.
    Thank you very much, Madam Chairman, for considering my 
nomination and I would be happy to answer any questions you 
might have.
    Chairman Collins. Thank you very much. I will start my 
questioning today with the standard questions that we ask of 
all nominees.
    First, is there anything you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Ms. Mencer. No, Madam Chairman.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Mencer. No, Madam Chairman.
    Chairman Collins. And finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed?
    Ms. Mencer. Yes, Madam Chairman.
    Chairman Collins. We will now begin the first round of 
questions, which we will limit to 8 minutes each.
    In response to the Committee's written questions, you 
voiced your general support for creating a one-stop shop for 
homeland security grants and other assistance for State and 
local governments and first responders. A number of us on this 
Committee, including Senator Levin and myself, have pushed very 
hard for there to be a central point of contact that State and 
local governments and first responders could go to get 
information about grant programs.
    And as I mentioned in my opening statement, the Committee 
has approved legislation that would create a one-stop shop for 
first responders. It would also enact other measures to 
streamline the grant process. In addition, the Department is 
moving in that direction, as well. The legislation would 
require the creation of a single toll-free number for grant 
assistance. It would reduce duplicative grant applications and 
required plans.
    Based on your experience in Colorado and elsewhere, what 
specific steps would you take to bring about a consolidation as 
far as having a single point of contact for our first 
responders and our State and local governments? How can we 
improve the ability, since you have seen it from the State 
level, of our governments and first responders to get quick and 
accurate information about potential grants?
    Ms. Mencer. Yes, Madam Chairman. I do believe that there 
are things that can be done and I think ODP, the Office for 
Domestic Preparedness, has already started down that path, to 
look at ways to streamline this process. And certainly in the 
State of Colorado, ODP has been a tremendous help already with 
answering our questions concerning all the grant issues on this 
very important issue of homeland security.
    I think the Office for Domestic Preparedness will continue 
to do that and I understand there is some discussion at the 
Department of Homeland Security to further streamline the 
process, as you have suggested.
    Chairman Collins. Are you aware that it is now a 12-step 
process to actually get the money down to the local level? It 
requires the filing of a report saying how you want to spend 
the money, then that is approved, then another report, and 
another plan have to be filed. Will you commit to working very 
closely with this Committee to simplify the process? We are 
committed to getting our bill through, but it may be next year 
before it is signed into law.
    Ms. Mencer. Absolutely, Madam Chairman. I would be 
committed to working with this Committee on a number of issues 
and that is one of them. I think streamlining is always 
something that we should strive for, as long as we maintain the 
funding for the maximum amount of good and make it efficient 
and effective.
    Chairman Collins. I also want to bring to your attention a 
very popular grant program that has worked extremely well in my 
State and in States across the country, and that is what is 
known as the Fire Act. It gives grants directly to local fire 
departments so they can improve their capacity to respond in 
the event of a terrorist attack. And with the help of the fire 
fighting community, we drafted our bill very carefully to 
preserve the administrative structure of the Fire Act program 
because it has a minimum of bureaucracy. It works extremely 
well and there is a high satisfaction level.
    The administration has suggested a different approach. We 
want to make sure that this program, which is working so well, 
while it is being transferred to a new location, continues to 
be administered as a separate grant program. When something is 
working very well, we ought to preserve that and not jeopardize 
it by folding it into other grant programs that aren't working 
as well.
    If confirmed, will you work to preserve the administrative 
structure of the Fire Act?
    Ms. Mencer. Madam Chairman, I believe it is the intent of 
Governor Ridge--Secretary Ridge at this point to maintain the 
Fire Act as it presently stands no matter where it happens to 
reside. I think it is a good program. I have heard from my fire 
fighting associates that, indeed, it is a program that they 
like, and I am sure that it will maintain its integrity no 
matter where it goes.
    Chairman Collins. The next issue I want to discuss with you 
has to do with the formula for allocating homeland security 
grants. As you can imagine, whenever we discuss formulas or the 
allocation of resources in Congress, those of us who represent 
smaller States often have different views than those of us who 
represent more urban populated States.
    What I want to point out to you, since you will undoubtedly 
be involved in the discussions on this, is that each and every 
State, regardless of its size, has certain homeland security 
needs and vulnerabilities. The State of Maine is a perfect 
example of that. We only have 1.2 million people, but we are a 
border State with Canada. We have an extensive coastline that 
makes us vulnerable. We have a very busy port that is the 
second-largest port by tonnage along the East Coast.
    We know that two of the hijackers on September 11 started 
out in Portland, Maine. I think that illustrates that we have 
to be very careful about allocating funds purely on a per 
capita basis--and some have argued that that is how it should 
be done.
    Larger States already receive substantial homeland security 
funding from other programs, such as the High-Threat Urban Area 
Grant Program, which I support, and which the legislation that 
I have authored would expand upon. In fact, during the past 2 
years, Congress has provided more than $1 billion for high-
threat funding, which benefits only a handful of States, and 
that amount is roughly a third of the total homeland security 
assistance to State and local governments.
    Second, not all potential threats directly target people 
where they live. A recent edition of Government Executive 
magazine focuses on the growing threat to our agricultural 
sector and our food supply. The article notes that foot and 
mouth disease is the most infectious virus known, for example, 
and that it could be spread by the wind more than 170 miles in 
aerosol form. The article also cites a National Defense 
University report that states even a limited outbreak of foot 
and mouth disease in this country affecting not more than 10 
farms could have a $2 billion impact.
    I wanted to take some time to give you that background 
because I have a feeling you will be hearing alternative views 
from some of my colleagues. But I want to make sure that I have 
your commitment that you will carefully assess this whole area 
of funding and not adopt what I believe would be a simplistic 
approach based on population that would not take into account 
the real vulnerabilities and threats that different States may 
have.
    Another example would be a State like Delaware, a very 
small State but one that has a large Air Force base in Dover, a 
speedway. I know my colleague, Senator Carper, is very 
concerned about the issues that his State would face, too.
    Do you share my belief that we need to consider a range of 
risks, threats, and vulnerabilities in addition to population 
when deciding how to effectively allocate homeland security 
grant funding?
    Ms. Mencer. Yes, Madam Chairman. I believe you are 
absolutely correct. It is a complicated issue that deserves a 
more measured response, and certainly not a simplistic 
approach. And I think you are absolutely right that you have to 
take in many factors when you look at how to protect a State 
and what needs to be protected. You have to consider its 
vulnerability, the threat level against that State, and also 
its critical infrastructures and its population. So it is a 
multi-faceted view of how to protect these States.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman, and welcome, 
Ms. Mencer. It is nice to see someone here who is so well 
qualified and we look forward to your service.
    I doubt that establishing the Department of Homeland 
Security has not been a gargantuan undertaking, but I was 
concerned about something--and by the way, you have a Colorado 
connection and I have two. They are two little grandchildren, 
my son's children who were born in the mountains in Edwards, 
Colorado, just a beautiful place. We have a real fondness for 
Colorado and understand Colorado builds great character---- 
[Laughter.]
    So we are happy to see you here.
    Chairman Collins. Senator, excuse me for interrupting you, 
but I would note that she has New Jersey relatives with her 
that she introduced, so I knew you would want to know that 
and----
    Senator Lautenberg. From where? Maybe we can wrap this up. 
[Laughter.]
    Senator Lautenberg. Where are you from?
    Mr. Mencer. Pennsauken.
    Senator Lautenberg. Oh, Pennsauken, more in the Southern 
part of our State. It is nice to see you here, and for sure, 
that is another plus, Ms. Mencer. [Laughter.]
    That was good judgment. [Laughter.]
    There was an article in Sunday's Washington Post entitled, 
``The Government's Hobbled Giant,'' and it talked about the 
slow start and the confusion and suggests low morale at DHS. 
Now, the President initially resisted creating the Department 
and we hope that he is fully committed to giving it the 
resources that it needs to do the job that it must. I am 
interested in what you have had to say on the subject.
    I am also interested to learn what our nominee thinks about 
the adequacy of the formula ODP used to allocate first 
responder grants. Last March, ODP made an additional allocation 
of $566 million. Small States received anywhere from $4 to 
$9.78 per capita. New York, ground zero on September 11, 
received $1.40 per capita. Only California did worse on a per 
capita basis. My home State of New Jersey lost 700 people on 
September 11, received $1.69 per capita when the nationwide per 
capita average was $1.98.
    Now, Congress is partially to blame for the allocation 
formula used since the PATRIOT Act requires that each State, 
regardless of size, receives 0.75 percent of the total funding. 
That means that nearly 40 percent of it gets doled out in equal 
allocations. The Chairman talked about a bill that she has to 
improve the ODP grantmaking. Unfortunately, the bill does not 
fix the small State minimum, nor does it require that the 
population density be incorporated into the allocation formula.
    So I hope that you will be able to agree with us that S. 
1245 needs to be fixed so that we can reduce the enormous per 
capita disparities in the ODP's first responders grants, 
disparities that I, frankly, cannot justify to my constituents, 
many of whom were directly affected by the tragedy of September 
11.
    I am concerned that in the nearly 2 years since September 
11, the Bush Administration has failed to direct and assist 
States in developing a comprehensive threat assessment, which 
is of immediate importance to local and State Governments, as 
you surely know based on your own experience. If confirmed, 
what can you do to help expedite these Federal-level 
assessments and to help the States and the locals to develop 
their own comprehensive threat assessments or threat 
evaluation?
    Ms. Mencer. Madam Chairman, Senator Lautenberg, that is 
kind of a multi-faceted question and I will try to take them as 
I remembered them.
    As to the morale in the Department of Homeland Security, I 
certainly haven't been there, but I certainly haven't noticed 
anything in the individuals that have been working with me 
through this confirmation process.
    Senator Lautenberg. You saw the story in the paper?
    Ms. Mencer. I saw the version that was printed in our 
Denver Post, yes.
    Senator Lautenberg. I see.
    Ms. Mencer. Yes, but that is all I have seen, but I have 
not witnessed that at all.
    As to the formula process and trying to assess what a State 
needs and what kind of funding should be distributed, as I said 
earlier, I think it is a multi-faceted process and it is my 
understanding that the Department of Homeland Security is 
presently working on revising a formula--the formula, revising 
it so it is more comprehensive and takes into account a lot of 
factors.
    Senator Lautenberg. The threat assessment, I think, is the 
most important. I mean, if there is ever a vulnerability that 
has been identified----
    Ms. Mencer. Right.
    Senator Lautenberg [continuing]. It is our region, New 
York-New Jersey region, and----
    Ms. Mencer. Yes, sir, and they also are working--I know we 
are working very hard in Colorado to do a threat assessment now 
that is due to the Office for Domestic Preparedness by December 
31, and that is working with our State, Federal, and local law 
enforcement and first responder community to do certainly a 
comprehensive and complete threat assessment.
    Senator Lautenberg. Would you comment on the effectiveness 
of the color-coded homeland security system? I have had some 
significant doubts about it because it is so non-specific that 
people don't know what to do. I get calls in the office from 
constituents asking, ``Is it safe to plan a wedding in New 
York? Can we visit this place or visit that place? Do we dare 
do it? These are friends of children, grandchildren. So I say, 
yes, you can't not conduct your normal life. What do you think 
about the homeland security system--and I understand there is 
some review taking place there, is that true?
    Ms. Mencer. Yes, sir. It is my understanding it is under 
review currently. In the State of Colorado, I can tell you that 
we have made decisions based on what we perceived as our threat 
in our particular area by consulting with all of our partners 
in the State. I am certain that my former colleagues at the FBI 
would certainly, if there were specific threat information, let 
that be known to any area that might be more susceptible or the 
subject of a threat. So I am fairly confident that if there 
were specific information, it would be passed, then we must 
devise--each State must determine how are you going to react to 
these threat levels, and that is what we have done in Colorado.
    Senator Lautenberg. Yes. I think that the system was 
originally designed to reach those who are responsible for the 
law enforcement side, the whole security agenda, and as a 
consequence, there was some comfort taken, well, the governor 
would know and the head of the State police and the local 
police departments and emergency units. But again, because of 
the confusion that it brought, and without any direction or any 
warning as to what you do when the threat level is raised, what 
you don't do, do you keep your kids home from school, don't go 
to the doctor, don't go to work, all of those things.
    But, Madam Chairman, we have a very good nominee here and I 
am sure that she will pass with flying colors. I just want her 
to remember that New Jersey has specific vulnerabilities in our 
attempt to protect the entire country. Thanks for being here. 
The job, though complicated, is one that has to be done and we 
are sure that you will lend excellent leadership to it.
    Ms. Mencer. Thank you.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman.
    First, let me welcome our nominee. We congratulate her, and 
we look forward to her speedy nomination.
    Our Chairman has raised a number of issues with you which 
are very important issues which I think all of us have a great 
interest in, including the question of the administration of 
Fire Act grants, and I understand that your answer to that is 
that they will continue to be administered in the same way even 
though they are located in a different place. Does that mean 
that the Fire Act grants would still go directly to fire 
departments?
    Ms. Mencer. Just to clarify, I believe, Senator, it is 
Secretary Ridge's intent to maintain them as they are. I am, of 
course, not privy to those discussions, have not been to this 
point, so that is something I think I will be looking forward 
to working with and to looking at that issue if I am confirmed.
    Senator Levin. Is it your belief, then, from what you know 
and have been informed of that the Fire Act grants would still 
go directly to fire departments?
    Ms. Mencer. I think, presently, that is the intent. I, of 
course, again, am not privy----
    Senator Levin. As far as you know. I understand.
    Ms. Mencer. As far as I know.
    Senator Levin. OK. That is fair enough. On the one-stop 
shop issue, I again congratulate and commend our Chairman 
because she has been a leader in this effort to try to get the 
Department to have an 800 number, to have a one-stop shop, 
because there is a huge amount of confusion and uncertainty out 
there and they need our local communities, fire departments, 
responders, they all need to have one place, one number where 
they can go and get information and find out where applications 
are going to be filed. I know it is forthcoming and I would 
hope that, when confirmed, that you would speed up that 
process.
    Ms. Mencer. I think that Secretary Ridge has expressed that 
he is also looking for a one-stop shop to enable the States to 
have a central location to refer all their questions, all their 
grant information to, and I believe that is his intent.
    Senator Levin. What we have seen, I am afraid, so far, 
however, is some real storm clouds here in terms of funding. As 
I read the numbers, the administration has actually requested 
less for first responders in the 2004 budget than in the 2003 
budget when we add together the Office of Domestic Preparedness 
budget with the fire grant program budget. In 2003, the total 
of those two programs was $4 billion plus, and it is $3.5 
billion, slightly more than $3.5 billion in the 2004 request. 
And that, it seems to me, is a real underfunding.
    We will have the debates over formulas, which are perfectly 
normal around here and understandable, but it seems to me when 
it comes to the overall funding of first responders, that we 
are way underfunded. There was a report issued by the Council 
of Foreign Relations detailing the inadequacy of Federal 
funding for our first responders entitled, ``Emergency 
Responders: Drastically Underfunded and Dangerously 
Unprepared.'' It concluded that an additional $20 billion is 
needed to adequately fund first responders, and that is $16 
billion more than is being provided in the 2003 budget.
    I am wondering whether or not you will be weighing in on 
that issue. Do you have any feelings on that issue?
    Ms. Mencer. I think it is always a concern, how safe is 
safe enough and how much money do you need to do what you have 
to do to protect the country, and I think that will always be 
an ongoing debate.
    I think we have seen in the State of Colorado more money 
coming in than we have ever seen, and it has made a tremendous 
difference and will continue to make a tremendous difference. 
And yes, I would be committed to working to try to determine 
how safe is safe enough.
    Senator Levin. And would you be committed to trying to 
obtain adequate funding for our first responders?
    Ms. Mencer. I think we absolutely have to ensure that we 
put the money where it can do the maximum benefit and make sure 
we are efficiently and effectively doing that.
    Senator Levin. And that we have adequate funds to do that?
    Ms. Mencer. I think that is part of the whole 
interpretation of that, is to make sure the funding is adequate 
to protect our citizens.
    Senator Levin. Now, on the formula issue, obviously, there 
are some differences depending on what States we represent, but 
there is a common theme, I think, which is that funding ought 
to go where there are vulnerabilities and threats. There are 
States with small populations which have greater threats than 
some States perhaps with larger populations. The Chairman's 
State, with a long seacoast, for instance, that is a real 
vulnerability. The other vulnerabilities and threats that she 
has identified in Maine are real. The other small States have 
their own vulnerabilities. Delaware is frequently mentioned. It 
has vulnerabilities.
    If we allocate funds based on vulnerability and where 
threats are, I am happy. The problem is when we go beyond that 
and have an arbitrary formula, that is where we get into 
difficulty. Now, traditionally, we have done that. We have had 
a so-called small State minimum that has been guaranteed to 
every State, separate and apart from what vulnerabilities and 
threats will be. That doesn't mean there are no vulnerabilities 
and threats, it just means as a base, that we have provided 
funding to all States.
    Traditionally, it has been somewhere between half of one 
percent guaranteed to each State and zero, and there are dozens 
of programs, over 50, where that formula is being used, up to 
half of one percent, down to nothing.
    In this particular program, it is three-quarters of one 
percent, which is, I think, unique except perhaps for one other 
grant program. And so the issue is whether or not there is 
going to be that kind of an arbitrary allocation not based on 
specific threats or vulnerabilities and that is where there are 
obviously differences here between us.
    I would like to read to you the Federal Funds Information 
for States, which is a leading organization that analyzes State 
grants, Federal grants to States, which says that the structure 
of the 0.75 minimum as a base represents a departure from the 
traditional small State minimums, which are typically 0.50 or 
less, in other words, half of one percent. And so that is what 
I hope the Department is going to be looking at when they 
decide what they are going to do. In fact, I think we have on 
record a statement previously by the governor that he is going 
to be looking at this whole issue and, indeed, is going to try 
to make a rational allocation of funds which is based on 
vulnerability, based on threat to the maximum extent possible. 
We are going to rely on him and you to do just that, because a 
minimum State formula just means one that is in keeping with 
traditions around here to the extent that we have one. But to 
the extent possible, maximally, based on our vulnerabilities 
and based on threats.
    By the way, under the current formula, just to give you one 
example, Texas receives $4.50 per capita. Wyoming receives $32 
per capita. I don't think it ought to be per capita 
distributed. I happen to agree that that is not a rational 
system, either, because of the need to distribute based on 
threat rather than on some arbitrary formula. But that is the 
result. It is kind of hard to think that Wyoming has got 
greater threats than Texas. Maybe, but it doesn't jump out at 
me that way.
    And finally, on this same point that the Council for 
Foreign Relations writes that Congress--well, I think I just 
quoted that, should work to establish a system for distributing 
funds based less on politics and more on threat. I just 
mentioned a few minutes ago that Secretary Ridge has stated he 
has got problems with the current formula and is working on a 
better way to allocate ODP dollars for 2004.
    So I think we all want to feel comfortable that we can 
count on you to the maximum extent possible to be looking at a 
formula here which does provide some funds for all States, 
because all States have some threats and all have 
administrative costs. But to the maximum extent possible, it is 
based on where the maximum vulnerabilities and threats are. Can 
we count on you for that?
    Ms. Mencer. Yes, sir.
    Senator Levin. Madam Chairman, thank you.
    Chairman Collins. Thank you, Senator Levin.
    As you can see, Ms. Mencer, it is going to be a challenge 
to be head of the ODP, but it is an extremely important 
position.
    In view of the hour, I am going to just submit some 
additional questions for the record for you to answer.
    I do want to make just one final point on the funding 
issue, not to get into a big debate with my distinguished 
colleague, but that is as you tackle this issue, I think it is 
very important that you look at all of the sources of homeland 
security funding and how they are allocated. And to give you an 
example, for the funding for fiscal year 2003 that was included 
in the omnibus bill, just two States, California and New York, 
received half of all the high-threat funds.
    So as you review these issues, it is important that you 
look at all of the funding and how it is allocated. The high-
threat urban area funding obviously benefits only a handful of 
States, but that has been set aside to deal with large urban 
areas. But only two States get more than half of that funding. 
So I think it is important to take a broad look.
    And the final comment I would make is that Secretary Ridge 
has testified both before this Committee and the Appropriations 
Subcommittee that he supports a base-level of funding for every 
State because we want to make sure that every State meets a 
certain baseline level of capacity, and I would assume that you 
would agree with the Secretary's position on that matter.
    Ms. Mencer. Yes, ma'am.
    Chairman Collins. Thank you.
    I would like to thank you for not only appearing before the 
Committee today, but also for being willing to take on this 
task. You really have the ideal background, your many years as 
an FBI agent, your work at the Department of Public Safety at 
the State level, and the work that you have done as a private 
consultant in training local law enforcement in antiterrorism 
efforts. It gives me great confidence that you are the ideal 
person to head this very important agency. We look forward to 
working very closely with you.
    Without objection, the record will be kept open until 5 
p.m. tomorrow for the submission of any additional questions 
from Committee Members or statements for the record.
    This hearing is now adjourned.
    [Whereupon, at 12:29 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


           PREPARED OPENING STATEMENT OF SENATOR NORM COLEMAN
    This hearing marks another important step in the creation of the 
Department of Homeland Security. The creation of the Department 
represents one of the largest management challenges in our Nation's 
history. It is important that we move expeditiously to approve the 
President's nominees.
    We all know that much of the responsibility for protecting our 
Nation falls on the State and local officials who live in each 
community. The Office of Domestic Preparedness plays a vital role in 
making sure that these jurisdictions have the equipment and training 
they need to do their job. It is also responsible for ensuring that 
Federal dollars are spent wisely according to a coordinated State plan.
    Ms. Mencer seems to be well qualified for the post to which she is 
nominated. Her experience in law enforcement gives her a good 
appreciation of the challenges facing our Nation. Her experience in 
State Government should make her more appreciative of the need to make 
it easy for State and local governments to work with the Federal 
Government.
    Today's hearing also gives us an opportunity to address the 
operation of the State and local grants program. This committee has 
already passed legislation sponsored by Senator Collins that would give 
the Department more guidance in how to distribute the grants to first 
responders. This same legislation would require the Department to 
implement changes that would make it easier for local governments to 
identify and apply for grant programs that would meet their needs. I 
hope that the Department will begin working on these initiatives 
immediately.

                               __________

         PREPARED OPENING STATEMENT OF SENATOR DANIEL K. AKAKA

    Thank you very much Madam Chairman. I would like to welcome Ms. 
Mencer and her family this morning.
    Ms. Mencer, as the former Executive Director of the Department of 
Public Safety for the State of Colorado, you appreciate that homeland 
security policies must address specific needs to States and 
municipalities to be effective.
    The Office of Domestic Preparedness (ODP) is in the process of 
working with States to assess and improve preparedness. However, a 
number of concerns have been expressed, which lead me to believe that 
more needs to be done to ensure that ODP grant programs address the 
homeland security needs of each State.
    Homeland security grant allocations should fully account for all 
who are present within a State. Grants are currently based on 
population data from the U.S. Census Bureau. With respect to Hawaii, 
the high military and tourist populations in the State are not counted 
for grant allocation purposes.
    As a result, Hawaii does not receive full funding for the entire 
population the State must protect. In fact, Hawaii has the largest per 
capita population of military service members of any State. As the 
Department of Homeland Security develops its strategy to revise the 
current grant allocation process, it is imperative that Hawaii and 
other States' military and tourist populations are included in any new 
grant formula.
    ODP grant programs also must ensure maximum flexibility for States 
to address unique homeland security needs. States are currently 
required to budget for grant aid in advance and wait for reimbursement 
once Federal funding is received. This is a considerable burden which 
diverts State resources and prevents effective program planning.
    Federal assistance should be tailored to meet each State's homeland 
security needs. For example, Weapons of Mass Destruction training 
grants are often only available for preparedness and awareness 
training, whereas in some States like Hawaii, officials have already 
received initial training and require advanced operational guidance. In 
another example, requirements for grant funding to be allocated solely 
to support interoperable communications systems results in barriers for 
basic equipment upgrades to ensure reliable communications among first 
responders. We need to ensure that States have the flexibility to sue 
these funds as needed.
    In an effort to address many of my concerns, I am pleased to join 
Chairman Collins in seeking enactment of S. 1245.
    Ms. Mencer, thank you for being with us. I look forward to working 
with you to ensure that Federal homeland security policies administered 
by ODP fully meet the unique needs of each State.

[GRAPHIC] [TIFF OMITTED] T0234.001

[GRAPHIC] [TIFF OMITTED] T0234.002

[GRAPHIC] [TIFF OMITTED] T0234.003

[GRAPHIC] [TIFF OMITTED] T0234.004

[GRAPHIC] [TIFF OMITTED] T0234.005

[GRAPHIC] [TIFF OMITTED] T0234.006

[GRAPHIC] [TIFF OMITTED] T0234.007

[GRAPHIC] [TIFF OMITTED] T0234.008

[GRAPHIC] [TIFF OMITTED] T0234.009

[GRAPHIC] [TIFF OMITTED] T0234.010

[GRAPHIC] [TIFF OMITTED] T0234.011

[GRAPHIC] [TIFF OMITTED] T0234.012

[GRAPHIC] [TIFF OMITTED] T0234.013

[GRAPHIC] [TIFF OMITTED] T0234.014

[GRAPHIC] [TIFF OMITTED] T0234.015

[GRAPHIC] [TIFF OMITTED] T0234.016

[GRAPHIC] [TIFF OMITTED] T0234.017

[GRAPHIC] [TIFF OMITTED] T0234.018

[GRAPHIC] [TIFF OMITTED] T0234.019

[GRAPHIC] [TIFF OMITTED] T0234.020

[GRAPHIC] [TIFF OMITTED] T0234.021

[GRAPHIC] [TIFF OMITTED] T0234.022

[GRAPHIC] [TIFF OMITTED] T0234.023

[GRAPHIC] [TIFF OMITTED] T0234.024

[GRAPHIC] [TIFF OMITTED] T0234.025

[GRAPHIC] [TIFF OMITTED] T0234.026

[GRAPHIC] [TIFF OMITTED] T0234.027

[GRAPHIC] [TIFF OMITTED] T0234.028

[GRAPHIC] [TIFF OMITTED] T0234.029

[GRAPHIC] [TIFF OMITTED] T0234.030

[GRAPHIC] [TIFF OMITTED] T0234.031

[GRAPHIC] [TIFF OMITTED] T0234.032

[GRAPHIC] [TIFF OMITTED] T0234.033

[GRAPHIC] [TIFF OMITTED] T0234.034

[GRAPHIC] [TIFF OMITTED] T0234.035

[GRAPHIC] [TIFF OMITTED] T0234.036

[GRAPHIC] [TIFF OMITTED] T0234.037

[GRAPHIC] [TIFF OMITTED] T0234.038

[GRAPHIC] [TIFF OMITTED] T0234.039

[GRAPHIC] [TIFF OMITTED] T0234.040

[GRAPHIC] [TIFF OMITTED] T0234.041

[GRAPHIC] [TIFF OMITTED] T0234.042

[GRAPHIC] [TIFF OMITTED] T0234.043

[GRAPHIC] [TIFF OMITTED] T0234.044

[GRAPHIC] [TIFF OMITTED] T0234.045

[GRAPHIC] [TIFF OMITTED] T0234.046

[GRAPHIC] [TIFF OMITTED] T0234.047

[GRAPHIC] [TIFF OMITTED] T0234.048

[GRAPHIC] [TIFF OMITTED] T0234.049

[GRAPHIC] [TIFF OMITTED] T0234.050

[GRAPHIC] [TIFF OMITTED] T0234.051

[GRAPHIC] [TIFF OMITTED] T0234.052

[GRAPHIC] [TIFF OMITTED] T0234.053

[GRAPHIC] [TIFF OMITTED] T0234.054

[GRAPHIC] [TIFF OMITTED] T0234.055

[GRAPHIC] [TIFF OMITTED] T0234.056

[GRAPHIC] [TIFF OMITTED] T0234.057

[GRAPHIC] [TIFF OMITTED] T0234.058

[GRAPHIC] [TIFF OMITTED] T0234.059

[GRAPHIC] [TIFF OMITTED] T0234.060

[GRAPHIC] [TIFF OMITTED] T0234.061

[GRAPHIC] [TIFF OMITTED] T0234.062

[GRAPHIC] [TIFF OMITTED] T0234.063

[GRAPHIC] [TIFF OMITTED] T0234.064


</pre></body></html>
